Q@OCKLE

Legal Briefs E-Mail Address:
& contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est.1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-572
RAVNEET SINGH,
Petitioner,

Vv.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of February, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the REPLY IN SUPPORT OF PETITION FOR A WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:
TODD W. BURNS HAROLD J. KRENT
BURNS & COHAN, IT CHICAGO-KENT
ATTORNEYS AT LAW COLLEGE OF LAW
1350 Columbia Street, 565 West Adams Street
Suite 600 Chicago, Illinois 60661
San Diego, California 92101 (312) 906-5039
(619) 236-0244 hkrent@kentlaw.iit.edu
Co-Counsel for Ravneet Singh Counsel of Record for

Ravneet Singh

Subscribed and sworn to before me this 6th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : ‘
State of Nebraska . LG Qu.draw-
My Commission Expires Nov 24, 2020 fi ‘

Notary Public Affiant 39439

 

 
 

 

Attorneys for Respondent

Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: United States of America

 

 
